<html>
<title> - COUNTERING CHINA: ENSURING AMERICA REMAINS THE WORLD LEADER IN ADVANCED TECHNOLOGIES AND INNOVATION</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


COUNTERING CHINA: ENSURING AMERICA REMAINS THE WORLD LEADER IN ADVANCED 
                      TECHNOLOGIES AND INNOVATION

=======================================================================

                                 HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         INFORMATION TECHNOLOGY

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 26, 2018

                               __________

                           Serial No. 115-107

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


        Available via the World Wide Web: http://www.govinfo.gov
                       http://oversight.house.gov
                       
                       
                              __________
                                                    

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
32-689 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="86e1f6e9c6e5f3f5f2eee3eaf6a8e5e9eba8">[email&#160;protected]</a> 
                   
                       
              Committee on Oversight and Government Reform

                  Trey Gowdy, South Carolina, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Virginia Foxx, North Carolina        Jim Cooper, Tennessee
Thomas Massie, Kentucky              Gerald E. Connolly, Virginia
Mark Meadows, North Carolina         Robin L. Kelly, Illinois
Ron DeSantis, Florida                Brenda L. Lawrence, Michigan
Dennis A. Ross, Florida              Bonnie Watson Coleman, New Jersey
Mark Walker, North Carolina          Raja Krishnamoorthi, Illinois
Rod Blum, Iowa                       Jamie Raskin, Maryland
Jody B. Hice, Georgia                Jimmy Gomez, Maryland
Steve Russell, Oklahoma              Peter Welch, Vermont
Glenn Grothman, Wisconsin            Matt Cartwright, Pennsylvania
Will Hurd, Texas                     Mark DeSaulnier, California
Gary J. Palmer, Alabama              Stacey E. Plaskett, Virgin Islands
James Comer, Kentucky                John P. Sarbanes, Maryland
Paul Mitchell, Michigan
Greg Gianforte, Montana
Michael Cloud, Texas
Vacancy

                     Sheria Clarke, Staff Director
                    William McKenna, General Counsel
     Troy Stock, Information Technology Subcommittee Staff Director
             Sarah Moxley, Senior Professional Staff Member
                    Sharon Casey, Deputy Chief Clerk
                 David Rapallo, Minority Staff Director
                                 ------                                

                 Subcommittee on Information Technology

                       Will Hurd, Texas, Chairman
Paul Mitchell, Michigan, Vice Chair  Robin L. Kelly, Illinois, Ranking 
Darrell E. Issa, California              Minority Member
Justin Amash, Michigan               Jamie Raskin, Maryland
Steve Russell, Oklahoma              Stephen F. Lynch, Massachusetts
Greg Gianforte, Montana              Gerald E. Connolly, Virginia
Michael Cloud, Texas                 Raja Krishnamoorthi, Illinois
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 26, 2018...............................     1

                               WITNESSES

Mr. John Neuffer, President and CEO, Semiconductor Industry 
  Association
    Oral Statement...............................................     4
    Written Statement............................................     6
Mr. Dean Cheng, Senior Research Fellow, Asian Studies Center, 
  Davis Institute for National Security and Foreign Policy, The 
  Heritage Foundation
    Oral Statement...............................................    12
    Written Statement............................................    14
Ms. Sarah Cook, Senior Research Analyst, East Asia, Freedom House
    Oral Statement...............................................    20
    Written Statement............................................    22
Mr. Rob Atkinson, President, Information Technology and 
  Innovation Foundation
    Oral Statement...............................................    35
    Written Statement............................................    37

 
COUNTERING CHINA: ENSURING AMERICA REMAINS THE WORLD LEADER IN ADVANCED 
                      TECHNOLOGIES AND INNOVATION

                              ----------                              


                     Wednesday, September 26, 2018

                  House of Representatives,
            Subcommittee on Information Technology,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2247, Rayburn House Office Building, Hon. Will Hurd 
[chairman of the subcommittee] presiding.
    Present: Representatives Hurd, Issa, Cloud, Kelly, and 
Krishnamoorthi.
    [Audio malfunction in hearing room.]
    Mr. Hurd. Welcome, everyone. We do not have an echo, so 
let's try that again.
    The Subcommittee on Information Technology will come to 
order, and without objection, the chair is authorized to 
declare a recess at any time.
    Good morning. For more than 40 years, the U.S. has 
encouraged China to develop its own economy and take its place 
alongside the U.S. as a central and responsible player on the 
world stage, but China does not want to join us. They want to 
replace us. More importantly, China has not been playing fair. 
They coerce American companies into entering into joint 
ventures with Chinese companies with close links to the 
Communist Chinese Government as the price for market access.
    The United States Trade Representative, which led a seven-
month investigation into China's intellectual property theft, 
recently found that Chinese theft of American IP currently 
costs between $225 billion and $600 billion annually.
    The Chinese have not been secretive about their ambitions 
and their goals. Chinese President Xi made it clear upon taking 
office that his dream for China is, and I quote, ``the great 
rejuvenation of the Chinese nation.'' Critical to Xi's vision 
of a rejuvenated China's dominance is manufacturing, modern 
advanced technology.
    In 2015, China's State Council introduced the Made in China 
2025 initiative with the aim to modernize the Chinese economy 
and become the world leader in manufacturing. Made in China 
2025 focuses on promoting breakthroughs in critical sectors of 
the Chinese economy, and of the sectors this hearing will focus 
primarily on next-generation IT, a topic that this subcommittee 
has been exploring for three and a half years. A next-
generation IT includes the hardware that make up today's 
technology and the networks that support communications. 
Examples include 5G networks, semiconductors, cloud computing, 
artificial intelligence, blockchain, and quantum computing.
    As we explore these issues, we cannot lose sight of the 
many abuses the oppressive Chinese Government perpetuates on 
its citizens. In China today Uighur Muslims are sentenced to 
years in prison for praying. Mothers and fathers are shipped to 
reeducation camps for practicing Falun Gong and never heard 
from again. The communist Chinese Government oversees one of 
the strictest online censorship regimes in the world, and the 
Human Rights Watch recently stated the broad and sustained 
offensive on human rights that started after President Xi 
Jinping took power five years ago shows no sign of abating. The 
U.N. estimates as many as 1 million Chinese citizens are 
currently quarantined in concentration camps.
    The Communist Party that runs the Chinese Government is an 
oppressive regime with an abysmal human rights record. As 
Americans, we believe everyone has a right to life, liberty, 
and the pursuit of happiness. The millions of men, women, and 
children living under the oppressive Chinese regime in China 
deserve better from their government. Our nation faces a great 
challenge rising from the East, but we have met greater 
challenges before, and I am confident we can meet this one.
    And I am also looking to explore how we do other things 
than tariffs. How do we put a regime in place that deals with 
the practices that we know China is doing? They are stealing 
our technology. They are forcing intellectual transfer. Alibaba 
is treated like a U.S. company in the U.S., but are American 
companies treated like Chinese companies in China? No. We know 
China prevents investment in key future sectors, but we allow 
Chinese investment in those sectors here in the U.S.
    I think there are other tactics we can be taking other than 
tariffs in order to deal with and ensure America and American 
companies specifically stay the leaders in innovation, and I am 
looking forward to exploring these issues today. And as always, 
I am excited to explore these issues with the one and only, my 
friend and colleague, Robin Kelly from the great State of 
Illinois.
    I thank our witnesses for being here today and look forward 
to hearing from them innovative solutions to ensure that 
America remains the world leader in advanced technologies and 
innovation.
    Mr. Hurd. And now, it is my pleasure to recognize the 
ranking member of the subcommittee, Ms. Kelly, for her opening 
statement.
    Ms. Kelly. Thank you, Mr. Chairman, and thank you for 
calling today's important hearing. And I too want to welcome 
the witnesses.
    China is mounting a serious challenge to the United States 
for global leadership in technology and innovation. China's 
success so far is attributed to two policies: China uses 
pressure tactics on American companies requiring them to 
transfer technology to Chinese firms as a condition of doing 
business in the Chinese market; and China's making world-
leading investments in research and development. In fact, for 
the first time Chinese investment in R&D will surpass U.S. 
investment next year. Together, these policies have transformed 
China into America's chief global competitor in advanced 
technology.
    Unfortunately, this administration's response has been to 
start a trade war with China with few results to show for it. 
Tariffs will not stop China from making huge investments in 
research and development, but tariffs are hurting Americans. 
Farmers are already feeling the effects. Soybean farmers in my 
home State of Illinois, which we are number one in soybean, are 
losing out on contracts in China, and workers have been laid 
off as a result.
    American shoppers will soon feel the effects. A recent 
study by the National Retail Federation estimates that the most 
recent round of tariffs will cost U.S. consumers $6 billion in 
higher costs for products like furniture and luggage. The 
Consumer Technology Association estimates that tariffs on 
technology products will cost Americans another $3 billion for 
devices such as modems.
    On top of the counterproductive tariffs, the Trump 
Administration's immigration policies are damaging our own 
ability to compete for the talent we need to remain a lead in 
technology innovation. The Administration recently announced 
that it was rescinding employment authorization for technology 
workers' spouses under the H-4 visa program. That sends a clear 
message that highly skilled immigrants who come to work for 
American technology companies are not welcome.
    And President Trump has not led the major increases in R&D 
investment and education funding that are necessary to stay 
ahead of China's commitments. Over the past three years, China 
has outspent the United States by approximately $24 billion on 
investments in telecommunications infrastructure. China is 
planning to invest an additional $400 billion over the next 
five years to win the race to deploy 5G wireless technology for 
cell phones. The United States is falling behind. China has 
already deployed 350,000 cell sites for 5G, while the U.S. has 
only deployed 30,000. Overall, while the U.S. remains a leader 
in spending on research and development, China is expected to 
surpass the U.S. in total research spending by the end of this 
year.
    China is also catching up to the United States in 
education. According to the National Science Foundation, China 
now awards nearly as many doctorates in science and engineering 
as the United States. Expanding STEM education is key for 
America to remain a leader in innovation in the global economy. 
To that end, I have introduced today's American DREAM Act to 
incentivize college graduates with degrees in a STEM field to 
teach for five years. This legislation would help the United 
States build the pipeline necessary to educate the next 
generation of innovators in science and technology.
    President Trump has gotten the U.S. into a trade war with 
China, which is harming American farmers and businesses. This 
trade war lacks a clear strategy with no end in sight. The 
United States should be investing in research and in education 
to preserve America's global leadership in technology and 
attract the best talents from around the world.
    Again, thank you, Mr. Chairman, for the opportunity to 
discuss this extremely important topic with our panel. Thank 
you.
    Mr. Hurd. Thank you, Ranking Member. And I agree; 
education, immigration, two ways we can solve this problem.
    And now, it is a pleasure to introduce our witnesses. Our 
first, Mr. John Neuffer, president and CEO of the Semiconductor 
Industry Association. Thank you for being here. Mr. Dean Cheng, 
senior research fellow, Asian Studies Center, Davis Institute 
for National Security and Foreign Policy at The Heritage 
Foundation. Say that three times fast. Ms. Sarah Cook, senior 
research analyst for East Asia at Freedom House; and Rob 
Atkinson, president of the Information Technology and 
Innovation Foundation.
    And welcome to you all. And pursuant to committee rules, 
all witnesses will be sworn in before you testify, so please 
stand and raise your right hand.
    [Witnesses sworn.]
    Mr. Hurd. Thank you. Please let the record reflect that all 
witnesses answered in the affirmative.
    In order to allow time for discussion, please limit your 
testimony to five minutes. The entire written statement has 
been made part of the record. And thank you for your 
submissions. A reminder, the clock in front of you shows 
remaining time. When it is yellow, you have 30 seconds. When it 
is red, your five minutes are up. Please remember to press the 
button to turn your microphone on before speaking.
    And now, it is a pleasure to recognize Mr. Neuffer for your 
opening remarks.

                       WITNESS STATEMENTS

                   STATEMENT OF JOHN NEUFFER

    Mr. Neuffer. Thank you. I work for a tech association, and 
I'm glad to see we're not the only ones with--that have 
technical difficulties with our equipment.
    Good morning, Chairman Hurd, Ranking Member Kelly, and 
members of this subcommittee. I'm John Neuffer, and I'm 
testifying on the behalf of Semiconductor Industry Association. 
Thanks for the opportunity to testify before this committee 
regarding one of the most pressing challenges facing the U.S. 
semiconductor industry today: How to maintain U.S. 
semiconductor technology leadership in light of the full-
throated effort by China to compete with the U.S. in advanced 
technologies, especially in regard to those Chinese Government 
policies and practices that threaten our intellectual property 
and distort markets.
    Invented right here in America, semiconductors are the 
building blocks upon which U.S. technological leadership rests. 
They power virtually all modern electronics from communications 
to transportation to health care to energy to military systems. 
U.S. ship makers lead the world. We account for close to half 
of the $412 billion global semiconductor market. We are the 
Nation's fourth-largest exporter after aircraft, refined oil, 
and automobiles. We have a global trade surplus of over $6 
billion, and a bilateral trade surplus with China of over $2 
billion. Importantly, nearly half of our manufacturing 
operations are right here in America, spread across 19 States, 
not just in Silicon Valley. And the industry employs close to 
25,000 workers in the U.S. with well-paying jobs.
    So China is a critical market for our industry, to be sure. 
At the center of the world's electronics supply chain, China 
is, unsurprisingly, the leading destination for U.S. 
semiconductor exports. We are especially concerned with Chinese 
actions, policies, and practices that force the transfer or 
allow the outright theft of our technology. This includes the 
forced transfer of our technology as a condition of market 
access, which you've addressed this morning, the plethora of 
formal and informal requirements that force the disclosure of 
intellectual property, and persistent economic espionage to 
steal viable IP.
    In 2014, China is--set in motion a massive effort to 
indigenize its semiconductor ecosystem with the goal of 
becoming the global leader in all major segments of the 
industry by 2030. Core to this effort are substantial 
government subsidies. Altogether an estimated $90-$100 billion 
in government financial support has been earmarked to support 
the sweeping undertaking. Similarly, Chinese industrial 
policies in sectors such as solar, wind, and LEDs have led to 
major distortions in the marketplace and left lots of wreckage, 
so we know what that picture show looks like.
    To maintain U.S. leadership in the semiconductor industry, 
the U.S. Government must develop a comprehensive and adequately 
resourced competitiveness and innovation agenda. Other steps 
need to be taken. First, let's eliminate tariffs, the recently 
imposed tariffs on semiconductors. Slapping tariffs on our 
products only hurts U.S. semiconductor companies, while failing 
to address the real problems we're having with China. Chinese 
semiconductor companies don't even send their products to the 
U.S., so Chinese enterprises are not hurt by tariffs.
    Second, strengthen multilateral actions with U.S. allies. 
Multilateral pressure is one of the few tactics that has 
historically prompted China to change course in a positive 
direction.
    Third, strengthen protection of IP. Press harder on China 
to adopt policies and engage in stronger IP enforcement to 
prohibit and penalize state or state-owned enterprises from 
misappropriating trade secrets or proprietary technologies 
generally and especially through activities related to the 
hiring of overseas talent.
    Finally, help the U.S. run faster with increased Federal 
investment in research. While the U.S. has long been the leader 
in semiconductor R&D, Federal investment in this area is simply 
not keeping pace with nation-state competitors.
    The United States is at a critical juncture. It's facing 
intense global competition from China in multiple high-tech 
sectors, including semiconductors. While our nation continues 
to dominate leading technologies from semiconductors to 
aerospace, we must not be complacent. There are real near-term 
and long-term challenges that require closer collaboration 
between industry and government to ensure we retain our 
technological leadership in key technology arenas.
    Thank you.
    [Prepared statement of Mr. Neuffer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hurd. Thank you, sir.
    Mr. Cheng, you are now recognized for your opening remarks.

                    STATEMENT OF DEAN CHENG

    Mr. Cheng. Good morning, Chairman Hurd, Ranking Member 
Kelly, members of the subcommittee and committee. My name is 
Dean Cheng. I'm the senior research fellow for Chinese 
political and security affairs at The Heritage Foundation. My 
comments this morning are my own.
    My comments this morning are intended to provide some 
context for better understanding the Chinese approach to 
information and information technology. Three key aspects 
underlie the Chinese view of the world and in particular their 
approach to information and communications technology: 
comprehensive national power, the period of strategic 
opportunity, and the impact of living in the information age.
    Comprehensive national power is how the Chinese compare the 
world's various nations, how do they rack-and-stack Bolivia, 
Botswana, Brazil, the United States. It includes all aspects of 
national power, military capability, economic capacity, 
political unity, diplomatic respect, even cultural security.
    Science and technology writ large, but especially 
information technology, contributes to and affects all three 
aspects--all of these aspects of comprehensive national power. 
It improves the economy, enhances military effectiveness, and 
can even elevate cultural security and strengthen political 
unity. It's also important to recognize that in the Chinese 
context, scientists and the scientific community often have an 
outsized political impact, and I would point to the example of 
the Chinese scientist Qian Xuesen, who was a combination of J. 
Robert Oppenheimer, Albert Einstein, and Robert Goddard in the 
Chinese context and had an enormous political influence.
    The period of strategic opportunity is from the Chinese 
perspective the first two decades of the 21st century. It is a 
period marked by low probability of war and therefore an 
important moment for China to focus on national development, to 
elevate GDP, GDP per capita, level of national infrastructure, 
and, again, level of science and technology capacity. 
Exploiting the period of strategic opportunity is central 
because it will allow China to catch up with the rest of the 
world and will include both internal domestic efforts, as well 
as exploiting ties to the outside world.
    And here the fact that we live in the information age 
becomes central because the rise of the information age 
facilitates China's access to the rest of the world's R&D 
capacity but also provides a focus for China's internal 
development. The rise of the information age means that future 
power is going to be measured not simply in an industrial 
capacity, how many gigawatts of power do you produce, how many 
millions of tons of bauxite do you refine, but in terms of the 
ability to generate, to gather, to analyze, to exploit, and to 
transmit information more rapidly and more accurately both 
within China but around the world. And so within this context 
information and communications technology, ICT, plays an 
especially outsized role, given its impact as the basic metric 
for future power.
    It is--should therefore not be surprising then that China 
is focused on developing information, not just ICT as we tend 
to think of it, whether it's semiconductors or 5G, but 
ancillary and related aspects, software, social media, even 
space. Space is seen as a vital part of information technology 
because it is a central means of both transmitting and 
gathering information.
    Again, it should not be a surprise that for the Chinese of 
particular emphasis is so-called ABC: artificial intelligence, 
big data, and cloud computing. In each of these areas the 
Chinese are pushing their state champions. It should be noted 
these are not necessarily state-owned enterprises, but all 
Chinese companies at the end of the day are state-influenced, 
and therefore, may not be directly working for China but are 
certainly not going to say no the way Google has over Project 
Maven.
    The Chinese do see all of this information revolution as 
fundamentally altering the state of play among nations, much 
like HMS Dreadnought instantly made all warships around the 
world obsolete. The Chinese believe that ICT is providing an 
opportunity to in a sense reset the global balance of power.
    In this context, however, I do want to emphasize to the 
members of the committee that the Chinese are not simply 
stealing. This is not of course to say that they don't steal 
but that they have spent an enormous amount of effort and 
energy to promote indigenous innovation, and therefore, it 
would be a horrible mistake for us to believe that if we simply 
could curtail theft, that China will inevitably fall behind. 
You cannot look at the amount of sustained effort and 
investment and believe that China is going to allow itself to 
fall behind.
    Let me conclude then with just a couple of quick thoughts 
on solutions, one of which is that if the issue is about stolen 
technology, then we should perhaps treat Chinese companies as 
dealing in stolen goods. And we have an extensive legal array 
of measures to deal with that. If it is about information, 
however, then for China it is as much about information access 
as it is about the information goodness itself.
    Thank you very much.
    [Prepared statement of Mr. Cheng follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hurd. Ms. Cook, you are now recognized for your opening 
remarks.

                    STATEMENT OF SARAH COOK

    Ms. Cook. Chairman Hurd, Ranking Member Kelly, and members 
of the subcommittee, thank you. It is an honor to testify.
    Last fall, the Chinese Communist Party declared its 
aspirations for China to become a, quote, ``cyber superpower.'' 
A September 2017 article in a top party journal lays out 
China's strategy for achieving this status and is surprisingly 
candid about the party's ambitions and motives, including, one, 
increasing domestic Chinese internet controls to ensure 
authoritarian longevity so that, quote, ``The party's ideas 
always become the strongest voice in cyberspace,'' end quote; 
two, using the technology sector as a foundation to secure 
China's economic health, including by enhancing the global 
influence of Chinese tech giants; and three, expanding 
information controls beyond China's borders in order to, quote, 
``push China's proposition of internet governance toward 
becoming an international consensus,'' end quote.
    Prioritization and effective implementation of such 
strategies has emerged as a hallmark of Xi Jinping's leadership 
of the Chinese Communist Party. Xi has a sophisticated 
understanding of how the internet and social media applications 
function, and he's proven himself adept at closing previously 
existing loopholes in internet controls. Indeed, over the past 
year alone China has taken new strides in technological 
advancement, censorship, surveillance, and international 
expansion.
    The Communist Party's cyber ambitions directly and 
negatively impact U.S. companies. China is home to over 800 
million internet users, but many of the world's top technology 
and social media firms are banned or extremely constrained in 
their ability to provide services to them, including Facebook, 
Twitter, and Google. A 2016 survey by the American Chamber of 
Commerce found that 79 percent of U.S. companies reported that 
Chinese Government internet's restrictions hurt their 
businesses.
    Chinese technology firms have been at the forefront of the 
party's censorship and surveillance efforts, but American and 
international firms are increasingly implicated. The Chinese 
Government is adept at using the combination of its ability to 
block online services and allure of its enormous domestic 
market to extract concessions from foreign firms, including 
assistance with its censorship and surveillance system. Under 
China's new cybersecurity law, foreign companies operating in 
China are also increasingly at risk of becoming complicit in 
politicized arrests.
    As Chinese and foreign companies take more steps to appease 
the regime, the human toll will continue to mount. Censorship 
and surveillance on sensitive topics like Taiwan, Tibet, 
Xinjiang, and Falun Gong either whitewash or actually 
exacerbate large-scale human rights violations, including mass 
detentions, torture, and extrajudicial killings. Ironically, 
the complicit companies are also victims of the government's 
repression. They suffer from the arbitrary nature of Chinese 
regulatory decisions, reduced profit margins, and distrust 
abroad due to close Chinese Government ties.
    China and the Communist Party's cyberspace policies and 
strategies are complex and multilayered. They require an 
equally sophisticated response. I would urge the committee to 
consider the following recommendations: One, the United States 
should be proactive in developing its own capabilities and 
upholding international free speech and privacy standards. This 
should include developing a comprehensive 5- to 10-year 
national strategy on artificial intelligence.
    Two, the United States Government should encourage the 
business community to take a principled stance vis-?-vis 
Chinese Government internet controls. This should include 
reintroducing and passing the Global Online Freedom Act, which 
would designate internet-restricting companies and impose 
certain requirements on companies doing business in those 
places.
    And three, the United States should be proactive in 
challenging the very clear authoritarian foundations of the 
Communist Party's cyberspace strategy. A central pillar of this 
effort should be increasing both the scale and effectiveness of 
funding for countering censorship efforts specifically related 
to China. The Chinese Government is spending billions of 
dollars a year not only to keep Chinese people from freely 
accessing the internet but also to keep U.S. companies from 
offering services to the largest internet market in the world. 
Some of the first websites Chinese users visits after jumping 
the so-called Great Firewall are actually sites like Google, 
Facebook, and Twitter. Supporting Chinese internet users' 
ability to access these websites not only enhances internet 
freedom but also U.S. economic competitiveness.
    In this context, I urge the committee to investigate and 
report on whether current U.S. Government funding for internet 
freedom in China is being deployed in the most effective manner 
to address today's challenges. This would involve seeking 
information from the Broadcasting Board of Governors and the 
State Department on questions such as how much internet freedom 
funding has been allocated to China? How many users in China 
have benefited? Does this appropriately match the needs and 
demands of users, as well as U.S. interests in policy goals 
vis-?-vis China?
    Funding efforts to date have undoubtedly done much good, 
but there is reason to believe that an even greater impact 
could be achieved with a more efficient strategy, possibly 
without the need to even increase funding. American and 
international firms are caught between a rock and a hard place. 
The Chinese Communist Party has laid out its own plans and 
ambitions, and it shows every sign of implementing them to the 
fullest. The question is whether the United States, other 
democracies, and tech entrepreneurs will assert their own 
principles, including freedom of expression, with equal 
determination.
    Thank you.
    [Prepared statement of Ms. Cook follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hurd. Mr. Atkinson, you are now recognized for five 
minutes.

                  STATEMENT OF ROBERT ATKINSON

    Mr. Atkinson. Thank you, Chairman Hurd and Ranking Member 
Kelly, members of the subcommittee. It's a pleasure to be here 
today.
    ITIF is a technology policy thinktank. We've long focused 
on the question of what we've termed innovation mercantilism 
from China. I won't go into the details of what that is. I put 
that in my written testimony. And let me say what should we be 
doing.
    Clearly, the avenue now is tariffs. I'm not going to say 
whether they're overall good or bad, but I think if we're going 
to use tariffs, we should use them strategically. Mr. Neuffer 
alluded to the fact that tariffs on semiconductors only hurt 
us, they don't help--they don't hurt the Chinese. We put 
tariffs on certain types of products or inputs where the 
American firm is competing against, say, a firm from Japan or a 
firm from Indonesia. They come into the country tariff-free. 
Our companies don't. If we're going to use tariffs, let's be 
strategic about it. Let's put some thought behind it and not 
just use it as a blunt instrument.
    I think more importantly, though, we need to think about 
how do we orient trade policy towards China in a results-
oriented way. This is something people argued about with regard 
to Japan in the 1980s. One of the results we want from China--I 
say that by the way because I don't think a process-oriented 
process works with China. They're just too sophisticated, and 
any time we say don't do a particular process, they will figure 
out a new way to do it. I think we want a number of clear 
easily measured results: one, an end to coerced and forced tech 
transfer. We can measure that. We can say just no more.
    Secondly, a vast reduction of industrial subsidies as, 
again, Mr. Neuffer alluded to. They're not just in the 
semiconductors. They're in a vast array of technology 
industries way, way beyond what the OECD subsidy guidelines 
would allow; a reduction in IP theft and cyber theft, and much 
better U.S. market access.
    So how do we do that? I think it's clear that our best 
chance of doing that is a deep, deep coalition with our allies. 
We had meetings with the Japanese, with the European officials, 
with Korean officials. They all ask for one thing, for us to 
take the lead, but they all want to be part of that. And I 
think right now we're not doing that.
    We've seen that that process works back in--I'm going to 
guess 2012 or so. There was a Chinese policy called indigenous 
innovation product catalogs, very onerous, restrictive process. 
You couldn't sell to the Chinese if you were a European or 
American firm unless you gave them your technology. That's 
essentially it. And the Europeans, their Chamber of Commerce, 
our Chamber of Commerce, our government, their government, all 
banded together, and that pressure was enough to force the 
Chinese Government to back off and eliminate the indigenous 
innovation product catalog. So we've seen that that way of 
organizing pressure works.
    If we don't do that, though, what do we need to do? I think 
a big part of this is going to basically be making their 
ability to catch up more difficult. We're just going to have to 
throw roadblocks in the way while at the same time speeding up 
our catchup. And part of that has to be limiting their global 
market share and expanding our global market share. Technology 
industries is probably one of the most important things you can 
do because global market share means more revenues to then 
invest in R&D.
    And in that regard I would say that having a company like 
Google go into China is completely in the American interest 
even if they comply with Chinese law. We want to take market 
share away from Baidu. We want to give our companies more 
market share.
    What else can we do? I think we need a better and more 
comprehensive ability to understand what's going on. That's why 
we've supported the Senate Bill S. 2757, the National Economic 
Security Strategy Act, which would call for an economic 
strategy aligned with national security for the first time in 
our history. We would encourage the House to adopt something 
similar.
    We certainly would encourage the administration to take a 
hard line on Chinese investment. FIRRMA certainly helps on 
that. But you see this now. For example, there are Chinese-
backed technology accelerators. There's one in University of 
Maryland, for example. These aren't out of the goodness of the 
heart of the Chinese Government. These are designed for one and 
one--only one purpose, to support new firms, new high-tech 
startup firms, and to take their technology across the ocean 
back to China.
    We need to have USTR bring a case before the WTO on subsidy 
disclosure, which they have not done. This is in--actually an 
area where the WTO might be able to actually act against 
Chinese interests as opposed to some other areas where it's 
much more difficult.
    I would work hard to ban Chinese access to our final--
Chinese firm access to our banking system, our securities 
system. They don't give us that.
    We need to rethink antitrust. For example, right now, we 
have a regulation that our Justice Department exempts mergers 
at state-owned enterprises in China. There's no reason to do 
that. We should be holding them accountable for antitrust the 
way they have used their process against us.
    And finally, even with all the efforts we need to be taking 
to slow them down and put roadblocks in front of them for their 
unfair actions, we need to take stronger actions at home, 
increase R&D, EXIM Bank funding, better STEM talent, better R&D 
tax credit, and the like. Thank you very much.
    [Prepared statement of Mr. Atkinson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hurd. Thank you, sir.
    I would now like to recognize the gentleman from 
California, Mr. Issa, for his opening rounds of questions.
    Mr. Issa. Thank you, Mr. Chairman.
    And what wasn't said in this open hearing is much of what 
you know directly about China's espionage and their successful 
effort to gain huge amounts of technology by stealing it 
systematically over the last probably four Presidents, so this 
is a bipartisan problem.
    I am going to start with Mr. Neuffer. You said something--
look, I come from your industry. We go back a long way. I 
watched us systematically sell out to the Chinese. I watched us 
systematically move our fabs to China. Now, I appreciate your 
discussion of exports, but exports and imports, we could net 
them and that statistic would probably disappear.
    But I think the important question is isn't one of the 
effects, positive effects of the tariff the fact that virtually 
every one of your member companies, if they are exclusively in 
China, are looking for a second location, either a U.S. 
location if they don't already have one, but even if they do, 
they are likely looking at the Philippines, South Korea, any 
number of other places.
    So I am not here to defend, and I would like a short answer 
of the fact, isn't it true that the current activity is causing 
your companies to second-guess having all or most of their fabs 
at least for some product lines in China?
    Mr. Neuffer. Great question. First of all, just as a 
percentage of our global production around the world, the 
amount of production we do in China is quite small.
    Mr. Issa. How many fabs does ----
    Mr. Neuffer. I don't know the ----
    Mr. Issa.--Intel have in California by the way?
    Mr. Neuffer. I don't know the ----
    Mr. Issa. The answer is zero. So I appreciate ----
    Mr. Neuffer. Well ----
    Mr. Issa.--your talking about Silicon Valley ----
    Mr. Neuffer. Well ----
    Mr. Issa.--but your industry left California for the most 
part because of unreliable sourcing of electricity and water. 
Isn't one of the challenges that we have to be more business-
friendly in the U.S. for at least those two assets or we are 
not going to bring those fab plants back here?
    Mr. Neuffer. So, I agree that we need to be more business-
friendly, and this is something that we've talked about a lot.
    Mr. Issa. Okay. Well, this administration is ----
    Mr. Neuffer. And ----
    Mr. Issa.--accomplishing that part, but could you just 
answer the short one? Isn't it true that your members are, as a 
result of the current situation with China, actively looking 
and moving if possible assets that they have been producing a 
China to at least have a second source outside of China?
    Mr. Neuffer. I'm not going to second-guess what's happening 
in the boardrooms ----
    Mr. Issa. Okay. Then if you are not ----
    Mr. Neuffer.--of my members, but my answer is ----
    Mr. Issa. But wait. No, I was talking about action. I just 
came back from Beijing.
    Mr. Neuffer. My answer is ----
    Mr. Issa. I was there for four days ----
    Mr. Neuffer. My answer is ----
    Mr. Issa.--and yes, they are.
    Mr. Neuffer. I don't think so.
    Mr. Issa. Okay. Well ----
    Mr. Neuffer. Yes.
    Mr. Issa.--unfortunately, your counterparts in China made 
it very clear to me that that is what is happening on the 
ground.
    You know, I am hearing that systematic tariffs don't work. 
I am going to ask a question. And I will go over to the other 
end and ask this question. You said in your opening comments or 
remarks that Google should go into China. I will paraphrase 
Ronald Reagan's quote when he was talking about people who gave 
him money, somebody questioned whether the contribution that 
Ronald Reagan got from some group tainted him. And he said 
people who give me money, I don't sign onto their values, they 
sign onto mine. Isn't it true that if Google goes into China, 
complies with Chinese regulations, effectively, they become a 
Chinese company? So is there really a net gain if you have to 
play by Chinese rules?
    And I will just give you the example. If I go into Africa 
and I ignore the Foreign Corruption Practices Act, don't I 
become an African company and essentially lose my U.S. 
identity?
    Mr. Atkinson. So, to be clear, what I intended to say if I 
didn't say it was I think we should support or not criticize 
Google if they want to go into China. If they want to go into 
China for ----
    Mr. Issa. But you said they should comply with--Ms. Cook--
he said ----
    Mr. Atkinson. Yes.
    Mr. Issa.--specifically they should comply with the Chinese 
rules. In other words, they should change to fit an unfair 
trade partner. Ms. Cook, you seem to have a comment on that.
    Ms. Cook. I think in those ----
    Mr. Issa. Or Ms. Code, I am sorry. I am ----
    Ms. Cook. Oh, sorry.
    Mr. Issa. Or Cook. No, it is.
    Ms. Cook. Cook, yes.
    Mr. Issa. You can tell my glasses need to be put on.
    Ms. Cook. I think the question that--the issue Mr. Atkinson 
raised related to market share--and I think it--we're 
cheating--we're deceiving ourselves if we think that the 
Chinese Government, with its indigenous innovation policies, 
promoting global giants like Baidu is really going to let 
Google get any kind of serious ----
    Mr. Issa. Well, and let me ----
    Ms. Cook.--market share ----
    Mr. Issa.--ask a closing question ----
    Ms. Cook.--so you're compromising your values. Sorry.
    Mr. Issa. The Chinese premier at the World Economic Forum 
made a speech that any Republican would be proud of, talking 
about lowering the burden, tax cuts, and so on, but he also 
said that, in fact, his tax cuts were going to have to replace 
subsidizing, that he could not subsidize his economy back into 
working. Does anyone here really believe that they are going to 
stop the subsidies that are absolutely pushed toward their 
indigenous companies and even away from our companies if they 
are operating in China? Hopefully, this is an easy one, Mr. 
Atkinson.
    Mr. Atkinson. Their subsidies, I would argue, are WTO 
illegal, many of them. And if we brought a case ----
    Mr. Issa. We do have cases in the WTO and have for some 
time, along with the Europeans ----
    Mr. Atkinson. Not on--excuse me. Not on overall catalog 
subsidy disclosures. Under the WTO session agreement, they were 
supposed to do that every six months. They haven't done it.
    Mr. Issa. Okay. The chairman is going to take back the time 
because he should. I'm going to close just by saying that what 
I like about the WTO process is that it gives plenty of time 
for people to think about it because it is slow as can be. 
Thank you.
    Mr. Hurd. Thank you, Darrell.
    I would now like to recognize Ms. Kelly for her first round 
of questions.
    Ms. Kelly. Thank you, Mr. Chair.
    Mr. Atkinson, your organization released a report in March 
2018 on the impact of tariffs on United States economy. In your 
report you wrote ITIF estimates that a 10-percent tariff levied 
on Chinese information and communication technology imports 
would slow the growth of U.S. output by $163 billion over the 
next 10 years, and a 25 percent tariff would slow output by 
$332 billion. You argue that, and I quote, ``Applying tariffs 
would needlessly harm the U.S. economy.'' And then just last 
week the administration imposed tariffs on $280 billion of 
Chinese imports. How will last week's tariffs affect the U.S. 
economy?
    Mr. Atkinson. The--we haven't done a thorough analysis of 
all the tariff lines in that $250 billion, but clearly--I think 
it's important to differentiate between what are called 
producer goods and consumer goods. So if you put a tariff on 
shoes, let's say, the impact is someone has to pay more for 
shoes. If you put an impact on a machine or a piece of software 
or a device that a company or an organization uses or the 
Federal Government uses to become more innovative and more 
productive, we're going to slow down innovation and 
productivity. So there are a number of--there are a number of 
products in that new regime of the $250 billion that would do 
that, and the result would be slower productivity and 
innovation in the U.S. because of that.
    Ms. Kelly. Okay. And then you said that you weren't going 
to say--I am paraphrasing quotes--are good or bad but if used, 
they just need to be used strategically. And I am just back to 
the WTO. I have steel industry in my community, and they go to 
the WTO often to settle dumping or low prices and things like 
that. And I don't know; it seems like, in listening to them, I 
don't know. Maybe it is effective, but as someone said, it is 
so slow. But they are extremely frustrated. And what do you 
think in this field how, you know--do you think it would really 
be effective and efficient or--I don't get that impression from 
some of my steel people.
    Mr. Atkinson. Sure. This is why I argue we need to treat 
China differently with regard to trade policy. So must other 
countries we have a process-oriented trade policy. If they 
violate something, there's a judicial process called the WTO. 
There's negotiations. We go through that. Yes, it's a little 
bit slow. It generally works, and it deals with the fact that 
many countries, including the U.S., have some protection. 
There's policies for other reasons.
    China's different, and that's why really fundamentally I 
don't buy the notion that the WTO alone could solve this 
problem. I use that as one example of something we should do, 
but it's got to be part of a much broader arsenal if you will 
because the Chinese know how to play--they know how to play the 
WTO to their advantage. One of the key advantages they have is 
they don't have written rules and laws. So to go to the WTO and 
win, we point to a law in Argentina that says X, and we can win 
that case, but there's no law in China on tech transfers, and 
therefore, they deny it. It doesn't mean it doesn't happen. It 
happens through administrative guidance and forcing in a 
meeting that you had to do this, so harder to prosecute those 
in the WTO.
    Ms. Kelly. Okay. So we need a lot of tools in the toolbox.
    Mr. Neuffer, when President Trump announced tariffs last 
month, he included the semiconductors from China as one of the 
products, and you stated at that time, and I quote, that the 
semiconductors imported, like you said today, from China were 
hurting American chipmakers, not China's, and will do nothing 
to stop China's problematic and discriminatory trade practices. 
How do tariffs on imports from China hurt American chipmakers?
    Mr. Neuffer. Thanks for that question. I just want to set 
the record straight from a question from Representative Issa.
    Ms. Kelly. Yes.
    Mr. Neuffer. I just want to underscore that 50 percent of 
our production is still here in the U.S., and while most of the 
manufacturing in the U.S. started in California over the years, 
it's spread out through the country, like I said, in 19 States. 
Intel, for example has massive fabs in Oregon and Arizona ----
    Mr. Hurd. And Texas.
    Mr. Neuffer.--and New York and in Texas, exactly. So it was 
just a natural maturing of the industry.
    And I also want to state for the record that if you look at 
American companies' global fab production are--quite a small 
portion of that is done in China. Most of it is done in the 
U.S. and other parts of the world.
    As for your question--thank you. The reality is the tariffs 
on semiconductors only hit U.S. semiconductor makers and makers 
of our allies like Japan, Taiwan, and Korea. The 
semiconductors--most of our semiconductors we make that go to 
China, they go there for some backend low-value assembly test 
and packaging. Basically, you take these wafers, you chop them 
up, you test them, you put them in these little things with 
leads. That's low-value stuff that adds about 10 percent of the 
value.
    Some of those chips come back here. Some of them go to 
other parts of the world. It's the ones come back here that get 
hit with the tariff. Chinese semiconductor manufacturers sell 
almost all of their chips in China and none or almost no chips 
to the U.S. So while we applaud the administration's effort to 
try to shut down the forced tech transfer and shutdown the 
illegal theft of IP that we're having with China, this is just 
a very blunt tool, and the semiconductor industry has gotten 
caught in the dragnet. And it's us getting hurt by this, and 
there's--it's not building leverage on the Chinese to 
potentially draw them to the negotiating table to get other 
outcomes.
    Ms. Kelly. Are they aware of this, that it hurts? It 
doesn't help ----
    Mr. Neuffer. The administration ----
    Ms. Kelly.--in your particular ----
    Mr. Neuffer. I believe so.
    Ms. Kelly. Okay. One common stipulation for American 
companies doing business in China, as has been talked about, is 
forcing them to engage in joint ventures or technology sharing. 
What are the dangers of a Chinese company with connections to 
the Communist Party appropriating American technology through 
joint ventures or other business deals? And is there real 
concern that American technology could be reverse engineered 
for military use?
    Mr. Neuffer. Yes, so these are all real concerns for sure. 
Joint ventures, we do them all over the world. We do them here 
and we do them in China. And the thing to keep in mind is, you 
know, we have regimes in place through export control that 
ensure that sensitive technologies do not seep out into regimes 
like China. And our companies are very careful about adhering 
to those export control regimes.
    The other piece of this is IP has been the lifeblood. 
Intellectual property, process technology has been the 
lifeblood of the semiconductor industry. The leaders of these 
companies are obsessive with trying to ensure that IP stays in 
their companies because if it ends up outside of their 
companies, their business disappears. Thank you.
    Ms. Kelly. We all agree China must be held accountable for 
IP theft and other unfair trade practices, but it is very 
concerning that this trade war is escalating and causing real 
harm to Americans. Can the members of the panel describe what 
the effects of full-blown trade war would be for the technology 
industry in the United States? And whoever wants to start is 
fine.
    Mr. Atkinson. Sure. So I think there's only two things that 
can happen out of this. One is eventually the Chinese will 
give. They'll cry uncle and they'll come to the negotiating 
table. I am still--I don't want to say I am optimistic but I'm 
open-minded to that. I really think that's a possibility, so we 
don't know what's going to happen.
    The other possibility is they just dig their heels in and 
they say forget it, we're never going to do this. And then the 
question for the U.S. becomes do we really want to have a 
really bifurcated global trading system almost going back to 
the Cold War era where you had a communist block that traded 
with itself and a non-communist block. And I think the cost of 
that would be quite significant for the U.S. It would be in two 
kinds of costs. One would be transition costs, so companies 
would have to move their facilities out of China. And we should 
be realistic; the vast majority of them are not coming to the 
U.S. They went there for a reason, oftentimes cost, so they 
would go to places like Vietnam or, as Mr. Issa said, the 
Philippines or maybe India or places like that. So I don't 
think we're getting--it's not like we're going to get much 
back.
    The other thing would be companies are there for a reason, 
and so if they have to go somewhere else, the costs will go up, 
and that would end up, again, hurting our ability to be global 
leaders because some of those products we sell in third 
markets. And so there's very good research on this that shows 
that when U.S. technology companies sell overseas, even when 
they don't produce that, a lot of those benefits come back to 
the United States in the form of high-wage jobs of designers, 
of R&D folks, of marketing, of sales, and all of that. So we 
depend a lot in our economy on jobs that--where the 
manufacturing isn't here, and so if we lose some of that 
because we have to have higher prices over, let's say, the 
Japanese or the Germans or something, it could hurt U.S. jobs.
    Ms. Kelly. Thank you.
    Ms. Cook. Tariffs are a little bit outside of my usual area 
of expertise, but I think I would just mention that, you know, 
if we're looking at the cost of the Chinese Government's 
internet censorship, especially the Great Firewall imposes on 
the Chinese--on U.S. companies, they already actually--it's a 
huge act of protectionism essentially that costs billions and 
billions of dollars. I mean, the reason companies like Google 
consider sacrificing their values is because they think they're 
going to be able to get access to 800 million internet users. 
That's more--almost triple the population of the entire United 
States.
    So I think, you know, again, not trade wars and tariffs are 
necessarily the answer, but I think it is worth keeping in mind 
that the starting point right now in this sector of online 
services is that the Chinese Government has imposed an enormous 
and very costly restriction that has huge economic 
implications, not just human rights implications, on U.S. 
companies.
    So I think anything the U.S. could do--again, I'm not sure 
tariffs are necessarily the answer to counter that--is a good--
including, you know, funding the scaling up of circumvention 
tools to allow more Chinese people to access the services 
without having to get the approval of the Chinese Communist 
Party gives leverage in other areas of negotiation as well and 
is--would--could be a very important investment of taxpayer 
money ----
    Ms. Kelly. Thank you.
    Ms. Cook.--so a little bit of a different perspective.
    Mr. Cheng. Like Ms. Cook, I am not a trade specialist, so--
but I would suggest that there are several questions that need 
to be answered in order to address the Representative's 
question. For example, I think that when it turned out that 
banning sales of all U.S. inputs to ZTE would effectively kill 
that company, that came almost certainly as a surprise to 
Chinese decision-makers, probably to even some American 
decision-makers. It highlights the lack of clarity regarding 
actual vulnerabilities in Chinese companies.
    Now, let me emphasize this is not an argument for tariffs 
whatsoever. What it is an argument for is a desperate need for 
us to better understand how supply chains work in both 
directions. What are actual Chinese vulnerabilities whether in 
the IT realm or perhaps in the petrochemical realm, in land 
reclamation, which has applications for the South China Sea? 
Because it may well be that there are more Chinese 
vulnerabilities in less-identified key subsectors than is 
generally widely recognized.
    The other question that remains also unclear is the Made in 
China 2025 program, which is to say what happens if China 
actually succeeds? We are here concerned about the potential 
impact of American tariffs on the global trade system, and 
that's a very reasonable question. But do we think that if 
China succeeds in in truly becoming self-sufficient in key IT 
areas, that China will all of a sudden then say but we support 
a global trading system, or will they now be insulated like 
their information ecology and environment behind in an 
industrial equivalent of a Great Firewall to basically say now 
that we're safe, bye. Thank you very much.
    Ms. Kelly. Thank you.
    Mr. Neuffer. Can I take a shot at that ----
    Ms. Kelly. Sure.
    Mr. Neuffer.--that question? Thank you. So just, again, for 
us, tariffs on us is puzzling because Chinese company 
enterprise don't send semiconductors to the U.S., so there's no 
leverage built. The other thing I'd like to say is 80 percent 
of our sales are overseas, China and other markets. Our 
customers are overseas, like most American companies, 
multinational companies, so anything that depresses trade is a 
risk for us financially, commercially.
    We do hope that these tariffs draw the Chinese to the 
negotiating table so we can get some beneficial outcomes, but 
until we get to that point, we are all at risk of hurting our 
economies. And after that, we hope--if they come to the 
negotiating table, they get strong outcomes, you know, all 
great, but if they don't come to the negotiating table and we 
don't get strong outcomes, where do we go from here? So a lot 
of questions about this.
    One thing we have been looking at in particular is what 
these tariffs do to IT spend, so tech products become more 
expensive, so IT spend becomes more expensive. And if IT spend 
is depressed, given that tech products--what you call them, 
Rob? Super technology ----
    Mr. Atkinson. Super capital.
    Mr. Neuffer. Super capital. Tech products are super capital 
that drive growth throughout the entire economy. If the IT 
spend starts dropping, that has an exponential multiplier 
effect throughout the entire economy, and this is something 
we're worried about. Thank you.
    Ms. Kelly. Thank you. And I am done.
    Mr. Hurd. I just finished 38 town halls in five days, and I 
am in Cotulla, Texas, which is part of south Texas. Most people 
know Cotulla as part of the energy boom. And the first question 
I got was actually on China. And a young woman asked me--and I 
know this question is slightly outside of our talk today. I 
know we are talking about IT, but I promised this constituent 
that I was going to be with a bunch of smart people and I would 
ask this question. How did China become the manufacture of 
millions of drugs that Americans take every day, right? And did 
they use predatory practices similar to those that we are 
seeing in the IT space? I would just welcome does anybody have 
a quick answer to that? Mr. Cheng, go ahead.
    Mr. Cheng. I am even less of a drug person than I am a ----
    Mr. Hurd. Tariff person?
    Mr. Cheng. Yes, sir. But my understanding--and this is 
without the benefit of having stayed at a Holiday Inn Express--
is that China does produce a great deal of fentanyl. Fentanyl 
is a key component for opioids. Whether that was predatory or 
not is much less clear. My very, very limited understanding is 
that, as with these other technology areas, that it's a complex 
mix of domestic demand due to everything from changing views of 
what should be prescribed under what circumstances, legal 
coverage, all those things, to, you know, the Chinese taking 
advantage of a market that appeared without necessarily 
indulging in predatory practices.
    Mr. Hurd. Good copy. Ms. Cook, do you have any opinions?
    Well, the constituent of the 23rd thanks you for that 
question, Mr. Cheng.
    Project Maven, DOD contract to work with commercial 
companies to do artificial intelligence along moving video, 
recently, Google made a fairly large statement about not 
participating in this project because, ultimately, the 
information that they were going to potentially identify could 
lead to a terrorist being identified and eventually the U.S. 
Government doing with terrorists what we generally do, kinetic 
strike. The area that I haven't seen enough conversation on--
now, you juxtapose that with Google's potential decision of 
getting involved in a search engine in China that violates, you 
know, freedom of expression, right, another value issue.
    The beneficiary of both of those decisions is China. You 
have an important American company involved on the pointy end 
of the spear when it comes to artificial intelligence breaking 
from Department of Defense, which arguably has the most data 
available to train algorithms. That is a strategic win for the 
Chinese. Have we seen--and we know that Chinese spy agencies do 
everything from stealing information and trying to influence.
    So my question is are we concerned or have we experienced 
or have we, you know, seen what I would call Chinese active 
measures when we talk about active measures using 
disinformation, influence operations? We talk a lot about how 
the Russians are doing this; why shouldn't China do this in our 
elections? But we don't talk enough about Chinese use of active 
measures when it comes to achieving a strategic goal like 
separate--driving a wedge between American companies and the 
U.S. Government. Opinions, thoughts, suggestions? I open it up.
    Mr. Atkinson, would you like to start us off?
    Mr. Atkinson. Yes, just a couple things to clarify. I 
actually believe that it is not in the Chinese interest to have 
Google come in. They're going to do whatever they want to do 
with information, blocking--doesn't make any difference whether 
there's a foreign company there or not, so I think that's in 
our interest, as I said before.
    There's a new book by a colleague of mine Darren Tromblay, 
who is now at GW who used to be in the FBI for many, many years 
in commercial counterintelligence. And this book is a--it just 
came out maybe four months ago, and it's a very good history of 
how foreign governments have used active measures against us, 
Russia, and China. And in that book there are many, many, many 
examples of how China is doing that. I can't say whether 
they've been doing that in the Google case that you alluded to 
with Project Maven, but they do that. And they use, you know, 
active measures, passive--and they use all sorts of measures to 
try to get our--to influence us and our companies to make 
decisions that aren't in our interest.
    Mr. Hurd. Ms. Cook, any opinion?
    Ms. Cook. I'm not privy to I think the kind of information 
that would address whether that happened in the Google case, 
but to echo Mr. Atkinson's comment, in general, the Chinese 
Communist Party uses a variety of measures to influence the 
United States, through media, through pressures to create 
censorship here in the United States, through various ways of 
recruitment and gaining access to information.
    And I think I would just comment that if you flip it on its 
head and you look at the area of artificial intelligence, it's 
one of the areas where Chinese companies are emerging at the 
forefront using very questionably ethical methods. A lot of the 
AI Chinese companies are heavily invested and have lots of 
government contracts in Xinjiang that's being--and their 
information is essentially being used to catch Muslims to send 
them to reeducation camps.
    They're able to use the massive amount of data they have 
access to to gain a more competitive edge internationally as 
well in the sense of both issues related to racial bias and 
artificial intelligence. They now have a contract with the 
Zimbabwean Government that will actually turn Zimbabwean 
citizens' data over to a Chinese company that will allow them 
to further improve their algorithms so they have access to 
Uighurs who ethnically look, say, Middle Eastern or central 
Asian, Chinese who look East Asian, and now Africans who--South 
sub-Saharan Africans that gives really potentially a 
competitive edge in an industry. They're anticipated to take a 
44-percent market share by 2023.
    One point is that one of those companies, a major investor 
is actually U.S. chipmaker QUALCOMM. So you have a situation 
where U.S. investors in general tend to reward problematic 
behavior like that because it can be very profitable but also 
where you have U.S. companies, potentially rather than 
investing in U.S. artificial intelligence firms to gain a 
competitive edge, are investing in a Chinese firm with very 
questionable, you know, practices.
    So I think some of the recommendations related to 
developing a comprehensive artificial intelligence strategy, as 
well as something like the Global Online Freedom Act that would 
hold companies to certain ethical standards, could be a way of 
pushing back both against other restrictions but also 
potentially, you know, suspicions and other ways in which the 
Chinese Government tries to gain influence in the U.S. tech 
environment.
    Mr. Hurd. And then, Ms. Cook, I would agree with you that 
we do need a national artificial intelligence strategy. Robin 
and I and our teams just put out a report this week 
highlighting, you know, some of the things that we have learned 
in our various hearings on artificial intelligence. I think you 
and I have done half of the hearings in Congress on artificial 
intelligence, and I believe that is important, as well as the 
need for a national strategy on quantum. I would say artificial 
intelligence right now is dumb, but the way it is going to get 
smart is once we achieve quantum. And I think these two things 
are connected, even though the science behind both are very 
different. So I agree.
    And this is why we do these things. The suggestion of the 
Global Online Freedom Act, hearing about this, getting this 
feedback on other initiatives that are out there is something 
that we are able to continue to sink our teeth and to go.
    And, Mr. Cheng, the previous question on, you know, Chinese 
active-- and I would even welcome the comments on--are U.S. 
companies prepared to defend against state-sponsored actors? I 
think I know the answer, having been in the private sector to 
help some companies do this, but are we seeing a recognition of 
all these, you know, issues that-- and Mr. Atkinson eluded to 
and probably that are mentioned in this book that was quoted. 
Mr. Cheng?
    Mr. Cheng. Sure. Three issues: one, the broader issue of 
Chinese influence operations ties into the Chinese view of 
political warfare. This is part of their doctrine. This is part 
of the specific missions assigned to the Chinese military. It 
includes a--so-called three warfares, public opinion warfare, 
which is a constant ongoing activity which is going on right 
now. It is not necessarily tied to a specific armed conflict, 
psychological warfare and legal warfare, manipulating both 
Chinese and foreign laws, regulations, treaties in order to 
achieve given political ends.
    One can imagine in the context of both public opinion and 
psychological warfare that the Chinese may well be inquiring of 
any foreign company, do you really think we will allow you into 
our markets if you are participating in a potential adversary's 
defense contracts? Whether or not that has occurred is not open 
to public, you know, open-source information. I would obviously 
defer to those who have access to far better data on that. But 
I simply throw out there the Chinese doctrine, which is 
publicly available, talks about the importance of employing the 
three warfares constantly against all potential adversaries.
    With the--on the issue of Google in China, I'm afraid I 
need to disagree with my fellow panelists. In the first place, 
the presence of Google in China would be a de facto endorsement 
of the Chinese information environment, that a company that 
specifically left after Chinese attack would then reenter would 
be spun in the context, again, of that public opinion warfare 
as proof of one of two things: Either China's market is so 
important that you will put up with almost anything we do to 
you; or two, that China's environment has improved to the point 
where you would voluntarily come back.
    As for the issue of market share, the Chinese in other 
areas have been very, very clear. There is a market share that 
they will allow you, and if you should pass that, then in that 
case, per Darth Vader in Empire Strikes Back, ``I am changing 
the terms of the deal. Pray I do not change them further.''
    And the way the Chinese go about this in terms of the issue 
of defending against attack too often takes pathways that we 
are--some take pathways that we are familiar with, direct cyber 
intrusion, et cetera, but particularly in the context of joint 
ventures and the things, they often involve, for example, 
staffing the H.R. department. If I decide who the joint venture 
hires, then in that case that creates a very different set of 
potential vulnerabilities.
    The other aspect here is whether or not companies 
themselves recognize--I think IT companies, ICT companies, 
semiconductor companies may well be aware of the 
vulnerabilities that are entailed. Banking companies are very 
much aware of the need to protect information. But it's the 
midsize company that feels it has to go into China that often 
has a small IT department to begin with that is far more likely 
to therefore say, well, but we do mid-level chemicals, we do 
paints, we do agricultural seedlings. Why would the Chinese 
attack us? I mean, obviously, you know, if we are a major 
defense contractor, of course they'll go after them, but why 
would they go after the makers of new headlamps? That--the 
Chinese have this voracious maw for all types of IPs, sometimes 
not recognized within the broader American corporate ----
    Mr. Hurd. Mr. Cheng, you have mentioned earlier about 
trying to understand real actual vulnerabilities of Chinese 
companies, and you used the ZTE example. And I agree with you. 
I think we should have gone forward and not allowed the U.S. 
components to be used in ZTE, and that would have sent a clear 
message to the Chinese that we are being serious. Do you have 
any examples--I know you said one of the things we need to do 
is actually understand that, and I am going to take that back 
to some of my friends to help ensure that we have a better 
understanding. But do you know of and can you ID a couple of 
current vulnerabilities in some of these Chinese companies that 
may be some items that this committee can take up or even other 
legislators take on and move with?
    Mr. Cheng. I don't know if this is within the purview of 
this committee, but let me give a different example. CCCC 
Dredging, CCCC is a Chinese state-owned enterprise. The 
Chinese, as they're doing South China Sea land reclamation, 
which of course has also been in the news, as they're building 
these new islands, it is not the Chinese military that's going 
out there, it's not the Chinese Ministry of Interior. They go 
to their own state-owned enterprises and say you, go and dredge 
up all the coral--it doesn't matter what the environmental 
impact is, dredge up thousands of tons of coral and build this 
new island. Many of those companies are using specialized 
dredging equipment that has not been manufactured in China, so 
therefore, they are going to European, American, foreign 
companies buying specialized equipment, dredger hoppers, 
equipment like that to basically destroy the environment of the 
South China Sea and build strategically important islands.
    Operating in a maritime environment, as any maritime 
engineer will tell you--also, I should note here I am not one 
of those either--is a very harsh environment. Things break. 
That means spare parts have to be purchased from abroad, which 
means CCCC Dredging is basically employing imported equipment 
to alter the situation in the South China Sea. Why we would 
allow that to continue given the strategic importance of that 
region is problematic in my opinion.
    A third area is basically speaking--and this goes directly 
to monetary issues--why do the Chinese list on foreign stock 
exchanges? They list on foreign stock exchanges for two 
reasons: one, obviously access to capital; but two, because it 
is a de facto, again, endorsement of the company. The Chinese 
play up the idea that if they are allowed to list on the New 
York Stock Exchange, then they have fulfilled U.S. SEC 
requirements. The bizarre part is that sometimes these 
companies are partly state-owned enterprises, which have an 
opacity to them. But again, they are nonetheless at times 
allowed to list on our stock exchanges.
    Mr. Hurd. Mr. Neuffer, we are going to get back to in round 
two, but I'm going to defer now and recognize Robin Kelly for a 
second round of questions.
    Ms. Kelly. Thank you. Something that has always been a 
concern to me--and part of it is when I go back to my district 
and I visit my companies. They always talk about the lack of a 
qualified workforce. And can you guys talk about this in that 
arena, that because of immigration or because of lack of 
investment in education or training and those kind of things, 
how--I know we feel it now, but it seems like we are going to 
feel it even more in the future. I don't mean to look at you 
but you ----
    Mr. Neuffer. Can I start? Thank you.
    Ms. Kelly. Yes.
    Mr. Neuffer. So a couple of things. First of all, 
electrical engineers drive the semiconductor industry. These 
are the guys--electrical and chemical engineers, these are the 
guys who make semiconductors. A lot of these young kids coming 
into this profession like to go off and make the coolest app 
and work for big internet companies, so there's a bit of a 
problem there. But a bigger problem is that we don't--our 
government does not have big enough emphasis on promoting STEM 
education and our immigration policy is broken so that we can't 
get the numbers of STEM employees from overseas that we need.
    And if you go to any semiconductor company, there are 
dozens if not hundreds of job openings for STEM applicants. So 
there needs to be a remedy. These are huge, systemic problems 
and riven with controversy, but until we get to the bottom of 
this, our industry, the semiconductor industry is at risk 
because you've got to have the talent to build these incredibly 
innovative semiconductors and stay at the tip of the technology 
spear. Thank you. Yes.
    Ms. Kelly. I am on the board of trustees of the college I 
graduated from, and then I am on an advisory from the other 
college I graduated from, and it is amazing. When I was at the 
graduation for one of the colleges, the lack of international 
students in engineering. I mean, it was unbelievable the change 
in both colleges. We talked about how they just haven't been 
getting the applications.
    Mr. Neuffer. Interesting.
    Mr. Cheng. When it comes to foreign students, one source 
that you probably do not have a shortage of is Chinese. China 
represents probably one-third of the current foreign student 
population of the United States, many of which are in STEM. The 
problem is that many of these students, the question becomes 
what is that they are coming here to study? They are studying 
STEM obviously, but are they staying ----
    Ms. Kelly. Right.
    Mr. Cheng.--or are they here particularly focused on 
programs which will have dual use and military benefit and then 
going home?
    We have seen a generational shift within the context of 
Chinese students. In the past, many of them tended to stay 
here. This is also true abroad, that is to say in Europe and 
elsewhere, but more and more of those students seem to be going 
home. Whether that's due to economic opportunities at home or 
due to pressure is much less clear.
    I certainly would not disagree that this country needs more 
engineers and more STEM students in general, but I would 
highlight that simply because you are getting an education in 
the STEM field does not any longer mean that you are in fact 
getting STEM education. There are professors who apparently are 
teaching math courses whose focus is on the fundamental 
underlying racism and sexism of math. Now, how that will help 
produce better electrical and aerospace engineers is beyond me, 
but I do think that if we are going to focus on STEM, that we 
need to be focused on actually producing people who can produce 
5 nanometer circuit wafers, who can produce better rocket 
engines for Blue Origin or ULA, who can produce, you know, 
better systems engineering and quantum computing and not 
necessarily engaged in whether or not, you know, a focus on 
math is somehow giving way to some of our worst historical 
habits.
    Ms. Kelly. Thank you.
    Mr. Atkinson. Thank you. I just also would be remiss if I 
didn't use this opportunity to thank you both for this 
excellent report that you both released I guess yesterday on 
AI. We at ITIF really applaud it and think it's exactly in the 
right direction, so thank you.
    Ms. Kelly. Thank you.
    Mr. Atkinson. I just want to quickly come back to the prior 
comment from Congressman Hurd. I think one of the challenges 
with this--and I--one of the challenges with this issue is we--
our--I don't want to say complete but pretty serious lack of 
knowledge in the U.S. Government, we don't know the answer to 
your question, and we should know that. And it's partly because 
we simply don't have an institutional home for that level of 
global supply chain analysis, and I think we have to have that.
    Congresswoman, with regard to your question, I actually 
think this is a much easier solution than people think. It 
tends to be framed as how do we convince a bunch of fourth-
graders to somehow like STEM. We've done a lot of research on 
this. We've come up with a fairly comprehensive strategy. There 
are lots of kids who like it. We don't give them enough of the 
right opportunities.
    So one of the things that we've proposed and supported, 
more specialty math in high schools, particularly in 
disadvantaged communities. They play an incredibly effective 
role in getting kids who might not otherwise be into that. They 
go to college--a good example of that is the San Antonio Math 
and Science High School--sorry, the Dallas Math and Science 
High School, 90 to 95 percent Hispanic and black students, 
almost 100--in fact, I think their rate of getting AP exams--5s 
on the AP exams exceeds most high schools in the country right 
now.
    Secondly, at college level, we know that one of the big 
problems is colleges could take more and have more students go 
through that, but they intentionally limit the slots in 
commuter science and engineering. They force people to leave 
the discipline who want to stay and are good students, and 
that's a budget issue and an incentive issue. And I think the 
Federal Government can provide more incentives to get 
universities to focus on--University of Washington, a good 
example, the C.S. department head I talked to, I asked him how 
many slots they could add without reducing ability-- without 
quality? He said we could double the number of Washington State 
students in our C.S. department, but we aren't given the budget 
to do it.
    Ms. Kelly. We actually started a STEM academy in my 
district just with my office exposing sixth, seventh, and 
eighth graders to different things that they could do with a 
STEM career, but of course it is hard to keep up because we are 
just a little office, but I know we piqued the interest and 
just trying to give opportunity and broaden their horizons, so 
thank you. Thank you.
    Mr. Hurd. Picking up on the issue of education, roughly 40 
percent of the people that are actually in STEM education, in 
master's and Ph.D. programs in the United States, are Chinese. 
And so my question is the United States has benefited from the 
brain drain of every other country for the last couple decades. 
Let's continue that. When you are at 3.8 percent unemployment, 
that means every industry needs people, whether it is 
agriculture or artificial intelligence.
    When you are at multiple quarters of 4 percent growth, of 
rising wages, you know, rising average income, the thing that 
can stall the economy is not having the proper workforce to 
take advantage of these opportunities. Two ways to do that, 
grow our own, we have talked about that, something that we have 
got to continue to do, but it is also through immigration. And 
you have people that are coming here and getting Ph.D.'s, 
master's, and they are having difficulty in getting the right 
visa in order to stay here and continue to work for U.S. 
companies.
    And so my question is, is the opportunity of having a smart 
person from somewhere else stay here and start a company here 
and be involved here, does that outweigh potential 
counterintelligence concerns about this being something 
directed by the Chinese Government? Who would like to start 
that out? Mr. Atkinson, let's go ahead and go with you.
    Mr. Atkinson. I don't think we know the answer to that 
honestly. You're right on both sides of that. The Chinese 
students who come here, get a STEM graduate degree, and then 
stay are of value to the U.S. economy and to our innovation 
system.
    I think one thing we could do and should do more is I think 
our universities tend to have a blind eye towards threats. 
There's a famous case at Duke University where they--Chinese 
students came, enrolled in the Ph.D. program, and essentially 
took the cloaking--this was Defense Department--the cloaking 
technology, they took it. And this was a few years ago, and so 
the--Duke wasn't aware of it and they hadn't thought about it. 
We need to make sure--through the FBI counterintelligence 
efforts, we need to make sure that every university has 
procedures and processes in place to at least limit that so 
they're aware of it.
    Mr. Hurd. So going on that, Mr. Atkinson, I am going to ask 
a broader question. Look, when you look at the amount of 
venture capital that has been deployed in Chinese companies, 
the amount of Chinese capital being deployed in let's call it 
broader Silicon Valley, do those companies recognize the 
national security threat of the investments that is coming from 
potential Chinese investors?
    Mr. Atkinson. No.
    Mr. Hurd. There it is.
    Mr. Atkinson. The lion's share have no concern or interest. 
They--you know, they just want the money.
    Mr. Hurd. Ms. Cook? I know there are two questions there --
--
    Ms. Cook. Yes, I ----
    Mr. Hurd.--answer them both, one, either.
    Ms. Cook. I would just go back to Mr. Cheng's previous 
point about the way the Chinese Government looks at foreign 
political influence. It doesn't always necessarily separate the 
kind of military counterintelligence or things that we would 
look at as being more aggressive with softer forms of 
influence. And I think from that perspective a lot of the 
Chinese students here are victims themselves in many ways of 
pressures, of consular officials sitting in on meetings of the 
Chinese student associations at U.S. universities. If you look 
especially at the ----
    Mr. Hurd. You are saying Chinese ----
    Ms. Cook. Consular officials well ----
    Mr. Hurd.--officials in the United States at a U.S. student 
group ----
    Ms. Cook. At a meeting, so--yes, for ----
    Mr. Hurd.--with Chinese students at a U.S. university?
    Ms. Cook. Yes. So it ----
    Mr. Hurd. Okay.
    Ms. Cook.--might not be the full meeting. It might be 
just--certainly--well, one specific anecdote that I heard from 
a Chinese student, this was a number of years ago. This is 
getting a little more attention now related to elections within 
a university and one of the women who was trying to stand for 
election at this Chinese student's scholar associations happen 
to practice Falun Gong. And the consular officials basically 
went around the table of the specific officers or students and 
applied other pressures basically to pressure the students in 
that association not to elect her.
    And other ways in which--there's been a series of articles 
and investigations recently, especially in foreign policy I 
think, about the way the diplomatic--the Chinese diplomats 
influence Chinese student associations in the United States. 
Some of it's with funding. Some of it is with actual like 
reporting requirements and things like that. And again, these 
students--this is not without force behind it. I mean, I think 
we have to--again, it's very tricky because a lot of times the 
students are themselves--they have family in China, and the 
Chinese Government is very adept at pressuring family to get 
people abroad to do things. And so I think that's a threat to 
the safety and well-being of the Chinese students in American 
universities that our American universities aren't dealing 
with.
    But also it comes back to this bigger question of the way 
in which the Chinese diplomats and Chinese officials exert 
pressure on individuals here in the United States and potential 
actions that the U.S. Government could do because the same 
diplomats will also go and pressure an advertiser who they see 
advertising in the local dissident Chinese newspaper in New 
York City or will go and threaten the--a journalist who has 
family back in China who's working for Radio Free Asia or 
things like that. And the U.S. Government has been--in some 
cases there's real evidence about this and there isn't a strong 
response. There isn't a demarche. There isn't--I mean, these 
are violations of diplomatic conventions.
    So, I mean, I think that--again, this question of the way 
in which the Chinese embassies and consular officials are able 
to have communication, exert pressure on Chinese students 
ultimately can have very important counterintelligence 
ramifications because it's not necessarily that Chinese 
students are coming here ahead of time deciding to try to steal 
technologies. They can--the Chinese Government has the avenues 
and the power to put them and their families under tremendous 
pressure.
    Mr. Hurd. Sure.
    Ms. Cook. So being able to find a way in the United States 
to actually enforce our laws and stop that type of behavior has 
both national security implications and student welfare 
implications for the Chinese students as well.
    Mr. Hurd. Ms. Cook, you and many of your panelists have 
commented on something that I have seen. The U.S. intelligence 
community views intelligence differently than the Chinese view 
intelligence. And I would say using our vernacular, the 
intelligence bar for China is significantly lower than what it 
is for us, and therefore, even though the Chinese believe they 
are involved in intelligence operations, people on the U.S. I 
do not believe it is intelligence operations because that is 
not how we see or view that. And that is a disconnect from 
being able to have the information and collection on some of 
these behaviors of Chinese diplomats in our country, and so 
highlighting this is important.
    Mr. Cheng?
    Mr. Cheng. So, several points, sir. With regards to the 
very different view of what intelligence constitutes, we have 
interesting examples of ship visits to China where a series of 
fourth-graders each went up to American sailors and asked 
interesting questions, not like what's it like to be an 
American sailor, but what is the sonar frequency of your 
dipping sonar, a fourth grader, who would then promptly go back 
to the schoolteacher who led them and say, oh, the sailor said 
it was this. And after about four questions along these lines, 
the American sailors are finally told you should stop answering 
their questions, that these are not just innocent questions 
from fourth-graders.
    I do want to emphasize here that there is a danger of 
course in viewing every Chinese student as a potential agent --
--
    Mr. Hurd. Sure.
    Mr. Cheng.--that we do not want to go to a point where we 
are simply concluding based on ethnicity or ----
    Mr. Hurd. Sure.
    Mr. Cheng.--national origin that people are ----
    Mr. Hurd. And thank you for making that point, and I would 
add--and correct me if I am wrong--not all Chinese investment 
is necessarily a, you know, indication that this is going to 
lead to some draconian issue in the motherland.
    Mr. Cheng. No, I would agree with that as well because 
there is absolutely a profit motive also at work. Chinese 
entrepreneurs, like entrepreneurs everywhere, want to make 
money, want return on investment. That being said, of course, 
the government is more than happy nonetheless--and it has a 
vast array of tools--to pressure students, entrepreneurs, 
venture capitalists to pony up information, whether it's on 
projects that a professor--you know, an advisor's working on or 
whether it's new technologies that you're investing in.
    This goes to a broader CFIUS-related issue. CFIUS of course 
is vital, but CFIUS is a gatekeeper. It is our guard at the 
perimeter. And the problem, whether it's Confucius Institutes, 
whether it is students working for professors on advanced 
projects at universities, whether it is venture capital in 
Silicon Valley, the Route 128 corridor in Massachusetts, or 
outside Austin, all has the same issue, which is if you've made 
it past that, there is much less internal policing if you will. 
It's not that CFIUS is bad or is not enough--it's that CFIUS is 
not enough but it--we should not be adding to CFIUS' burden. We 
probably need a new approach to thinking about what happens --
--
    Mr. Hurd. So do you think FIRRMA was adding more burden to 
CFIUS or was that a move in the right direction? This is the 
legislation we recently passed in order to give CFIUS deals 
over transfer of critical technology--of potential investments 
in critical technology.
    Mr. Cheng. I think the idea behind it is vital and 
essential, sir. I have to admit that I'm not sure whether or 
not making CFIUS the party responsible is the best approach, 
not without expanding its staffing ----
    Mr. Hurd. Sure.
    Mr. Cheng.--and purview, but that--you--I think that that 
effort identified a key shortcoming, not in CFIUS per se but in 
our broader technology defense if you will.
    The last aspect here is simply to note that the issue of 
active interference within universities, we have seen this by 
Confucius Institutes, we've seen this by Chinese agents. You 
know, the previous administration admonished the Chinese about 
the improper activity of various officials. That was at best 
tepid but it was at least a first step. We do need, in terms of 
reciprocity, making very clear to the Chinese that their 
actions will have serious consequences, not just an 
admonishment, but whether it means PNG to officials, whether it 
means curtailing their activities and where they can travel, 
much like we have the--still imposed on Russian officials and 
counterparts.
    But again, going to the broader information-related issues, 
not just IT, why is it that the Chinese can limit the presence 
of VOA and other reporters to one or two--to cover an entire 
country the size of the United States, but there can be a good 
dozen Xinhua bureaus with freedom of travel across the United 
States?
    Mr. Hurd. Mr. Neuffer, staff is getting uncomfortable, 
which always means we have been going on too long, so let me 
end. And this is a question for all of our panelists. You got 
one more?
    Ms. Kelly. Just one.
    Mr. Hurd. I am going to yield to my friend, Ms. Kelly.
    Ms. Kelly. It just takes a one-word answer from each of 
you. I know we are talking about China, but what country is 
behind China? With the concerns we have about China, what other 
country would you say we need to be concerned about? If there 
are two, that is fine, but ----
    Mr. Atkinson. India.
    Mr. Hurd. Ms. Cook?
    Ms. Cook. I think still probably Russia for the issues that 
we're looking at, Russia and Iran.
    Ms. Kelly. Okay.
    Mr. Cheng. I'd agree with Ms. Cook, Russia and Iran.
    Ms. Kelly. Okay.
    Mr. Neuffer. And I'll say Russia and India to mix it up.
    Ms. Kelly. Okay. Thank you. I am just curious. Thank you.
    Mr. Hurd. So, Mr. Neuffer, and we will start with you and 
we will end. Mr. Atkinson, you can have the last word, so make 
it good. One statement on something else we can be doing other 
than tariffs, Mr. Cheng has given us several. Don't allow 
Chinese companies on the New York Stock Exchange. We have Ms. 
Cook's comments about reintroducing and passing the Global 
Online Freedom Act. What is something that I can turn to our 
teams and say, hey, can we get this done? What do we need to do 
to make this happen? That is what I am looking for, something 
short, something tight. All of our staffs' pencils are 
sharpened and ready. Mr. Neuffer?
    Mr. Neuffer. Excellent. One, as Rob said, it's not the only 
solution but we should be driving more of our problems into the 
WTO. It takes time, but we usually win in in that fora, and the 
Chinese respect and are desperate to keep the WTO alive these 
days.
    Two, let's get more regional trade agreements. The TPP was 
very important for our industry. We were sad it didn't go 
forward, and it plays a very important role of setting a model 
for how China and others should behave in the trade arena.
    Three, we need to be embracing our allies much more often 
and much more deeply, as Mr. Atkinson says.
    I've been involved in a number of very contentious issues 
with China, and we worked with our allies very closely and were 
able to push China back.
    Mr. Hurd. Okay.
    Mr. Atkinson. China does not like to be isolated. And 
three, we have to have a very, very strong affirmative agenda, 
and that affirmative agenda for us needs to focus on peddling 
faster, and to pedal faster, we need this U.S. Government 
investing more heavily in basic research, in tech and our 
sector.
    Mr. Hurd. Good copy. Mr. Cheng, you are now--and you don't 
have to repeat the ones you have already said because I have 
gotten those down.
    Mr. Cheng. Okay. On the issue of stolen technologies, we 
should be treating stolen technology like stolen technology, 
which is to say you are trafficking in stolen goods; we will 
therefore punish you for doing so. That opens the door then to 
RICO, to basically criminal conspiracies, which then places the 
onus on American subsidiaries and their executives to 
demonstrate that they are not engaging in the trafficking of 
stolen goods, which puts them then on our side. I want these 
people to be doing good business. There's nothing wrong with 
competition. But if you are trafficking in stolen goods, then 
it's not just, you know, your company that will be punished. 
You're going to lose that nice house, the three cars, and the 
horse.
    Mr. Hurd. And we know a few people that are pretty good at 
handling RICO cases.
    Mr. Cheng. Yes, sir. The other thing is just an area of 
importance, the Internet of Things. If you're worried about 
artificial intelligence, if you're worried about that that is a 
giant data swamp, and the IT security associated with IOT at 
this point is beyond primitive, I mean, pretty much 
nonexistent. We need to be thinking about setting standards. We 
need to be thinking about also limiting the amount of data flow 
from IOT, your coffeemaker, your refrigerator, back to China.
    Mr. Hurd. Great. Thank you. Ms. Cook?
    Ms. Cook. I think we need to and I think we actually can 
punch quite a big hole in the Great Firewall. We work with 
circumvention-tool developers to get some of our content on 
censorship that we translate into Chinese to Chinese users, and 
we see--we get from the data millions of people every--in a 
week's span, and that's just one tool accessing it.
    Another tool that's on actual mobile phones which are 
becoming more--which is the main way Chinese people work, also 
they get to a landing page and content related from Freedom 
House, content from Radio Free Asia, Voice of America, but also 
of course Google, Google ads, Facebook, those are the first 
places people go.
    And the U.S. Government has invested tens of millions of 
dollars in internet freedom projects around the world, and if 
you look generally, you know, working on circumvention tools 
isn't necessarily the answer in every country because the 
tactics are different, and even in China it goes through waves, 
but right now, there is a real demand after VPNs have been 
taken off of Apple's iPhone store, the--I spoke to before this 
hearing a number of circumvention-tool developers who have 
received U.S. funding in the past but for various reasons it 
seemed to indicate a level of--a certain degree of 
mismanagement, to use their words. They're not being used as 
effectively.
    There is emphasis in some cases on developing new tools as 
opposed to scaling up tools that are being effective and could 
be scaled up more widely, and so what we--that's why I would 
urge the committee--and I can connect the staffers to relevant 
people--to take a look, to speak to people at the BBG, people 
at the State Department specifically regarding the China 
portion because for other countries that don't have a firewall, 
you need other solutions.
    But in China, I think there's a real question how this 
funding has been disbursed, whether it could be--should be 
increased but could be managed and get to people more 
effectively because if--you know, one of the developers was 
saying that these Chinese companies are spending billions of--
like the amount of money per user on censoring people, if he 
had even the fraction of that, he can actually provide, again, 
access to so many more people.
    And so think about what alternative future would be if you 
have innovation in that area. And one of the ideas he said was 
don't just have separate circumvention apps. Have 
circumventions programmed into existing apps. Then you've got 
Chinese users going and visit--Google doesn't have to 
compromise its values because you've got a least a certain 
market share of Chinese users jumping the firewall. And again, 
this is--you know, I think there are reasons to believe why 
this could be possible from a technological perspective without 
an enormous expense necessarily on taxpayers. So that--I think 
that's what we would urge to really look at.
    Mr. Hurd. That's good copy and very helpful. Mr. Atkinson, 
you have the final word. Make it tight, make it good.
    Mr. Atkinson. I can make it tight; I don't know about the--
making it good. We issued a report last year where we laid out 
a very comprehensive nontariff agenda. There's a whole lot of 
ideas in there. Let me address three quickly.
    One, enact a regime where Chinese entities who seek 
technology licenses in the U.S. have to essentially get that 
license on the same terms that they force our companies to 
license in China, so reciprocity around technology licensing. I 
would just limit and end most U.S.-China S&T cooperation. I 
don't see any reason why we have any cooperative agreements 
with the Chinese when it comes to science and technology.
    And third, I would build a--I would spend more money on 
customs enforcement. There's a lot of Chinese counterfeit goods 
that still get in this country, and that's a good way to make 
them suffer pain. They go to make--produce the product, they 
send it all the way over there, and then we burn it or throw it 
in the ocean, and that sends them a very clear message so ----
    Mr. Hurd. That was very good. Thank you.
    And I want to thank all the witnesses for appearing before 
us today. The hearing record is going to remain open for two 
more weeks for any member to submit an opening statement or 
questions for the record.
    And if there is no further business, without objection, the 
subcommittee stands adjourned.
    [Whereupon, at 11:43 a.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
